No. 20-440

In the Supreme Court of the United States
MINERVA SURGICAL, INC., PETITIONER,
v.
HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC, RESPONDENTS.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,999 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct. Executed on
November 5, 2020.

/s Matthew M. Wolf _
Matthew M. Wolf
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
matthew.wolf@arnoldporter.com
November 5, 2020

